APPENDIX "A"
APRIL 13, 2021 ELEVENTH CIRCUIT ORDER
DENYING REHEARING

USCA11 Case: 18-14700

Date Filed: 04/13/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-14700-JJ

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
\

WILLIAM BRINSON BALL,

i

Defendant - Appellant.

Appeal from the United States District Court
for the Middle District of Florida
BEFORE: WILSON, ROSENBAUM and BLACK, Circuit Judges.
PER CURIAM:
The Petition for Panel Rehearing filed by William Brinson Ball is DENIED.

ORD-41

I

APPENDIX "B"
NOVEMBER 17, 2020 OPINION OF ELEVENTH CIRCUIT
AFFIRMING CONVICTION

UNITED STATES OF AMERICA, Plaintiff-Appellee, versus WILLIAM BRINSON BALL,
Defendant-Appellant.
UNITED STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT
835 Fed. Appx. 493; 2020 U.S. App. LEXIS 35963
No. 18-14700 Non-Argument Calendar
November 17, 2020, Decided
Notice:
PLEASE REFER TO FEDERAL RULES OF APPELLATE PROCEDURE RULE 32.1 GOVERNING
THE CITATION TO UNPUBLISHED OPINIONS.
Editorial Information: Prior History
{2020 U.S. App. LEXIS 1}Appeal from the United States District Court for the Middle District of Florida.
D.C. Docket No. 8:18-cr-00069-EAK-AAS-1.United States v. Bail, 2020 U.S. App. LEXIS 3054 (11th Cir.
Fla., Jan. 30, 2020)
Disposition:
AFFIRMED.
For UNITED STATES OF AMERICA, Plaintiff - Appellee: Jennifer
Waugh Corinis, Michelle Thresher Taylor, U.S. Attorney Service - Middle District of Florida,
U.S. Attorney's Office, TAMPA, FL.
For WILLIAM BRINSON BALL, Defendant - Appellant: Baylor
Sherwood Johnson, John L. Urban, Urban Thier & Federer, PA, ORLANDO, FL; William
Brinson Ball, FCI Coleman Low - Inmate Legal Mail, COLEMAN, FL; Frank Louderback, Law
Office of Franklyn Louderback, SAINT PETERSBURG, FL.
Judges: Before WILSON, ROSENBAUM and BLACK, Circuit Judges.
Counsel

CASE SUMMARYDefendant's guilty plea conviction for attempted child enticement in violation of 18
U.S.C.S. § 2422(b) was affirmed since, under plain error review, applying the statute extraterritorially
was not unconstitutional, and his conduct violated the statute.
OVERVIEW: HOLDINGS: [1]-Defendant's conviction for attempted child enticement was affirmed since
his claim that the extraterritorial application of 18 U.S.C.S. § 2422(b) was unconstitutional was subject to
plain error review, even assuming his guilt was based on conduct that occurred outside the United
States, the district court did not plainly err in accepting his guilty plea because neither the United States
Supreme Court nor the United States Court of Appeals for the Eleventh Circuit had addressed whether §
2422(b) extended to conduct occurring outside the United States, and the statute itself did not
specifically resolve that issue, and his constitutional challenge was foreclosed to the extent it is based on
his contention that § 2422(b) did not reach sexual conduct that would have occurred in international
waters and would not have violated Florida law.
OUTCOME: Conviction affirmed.

CIRHOT

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

{835 Fed. Appx. 493} PER CURIAM:
William Brinson Ball appeals his conviction for attempted child enticement in violation of 18 U.S.C. §
2422(b) after pleading guilty to this offense. Ball argues applying the statute extraterritorially is
unconstitutional and that his conduct did not violate the statute. After review,1 we affirm.
{835 Fed. Appx. 494} I. DISCUSSION
A. Waiver
Section 2422(b) makes it unlawful to use "any facility or means of interstate or foreign commerce" to
induce, entice, or coerce a minor "to engage in prostitution or any sexual activity for which any
person can be charged with a criminal offense," or to{2020 U.S. App. LEXIS 2} attempt to do so. 18
U.S.C. § 2422(b). The indictment charged Ball with attempting to entice a minor to engage in sexual
activity that would have violated Florida law. The factual basis set forth in his plea agreement
detailed how Ball, who then resided in Dubai, communicated over the Internet with a special agent
posing as the father of a seven-year-old child to organize a sexual encounter with the child, paid
$5,000 for the encounter, and flew from Dubai to Orlando, Florida, and then drove to Tampa, Florida
for the encounter.
Ball argues applying the statute to extraterritorial conduct is unconstitutional. He contends his
conduct did not violate the statute because "the enticing action occurred outside the United States"
and involved proposed sexual conduct that would have occurred in international waters without
violating any Florida law. The government responds Ball has waived any challenge to his § 2422(b)
conviction because his argument that his criminal conduct was entirely extraterritorial contradicts the
admissions he made in his guilty plea. In his reply, Ball asserts he is not challenging the facts
supporting his guilty plea, but rather the legal conclusion, drawn from those facts, that his
conduct{2020 U.S. App. LEXIS 3} violated the statute.
Ordinarily, the entry of a valid guilty plea waives any objection to all non-jurisdictional errors. United
States v. Yunis, 723 F.2d 795, 796 (11th'Cir. 1984). However, a constitutional challenge to the
statute of conviction survives a guilty plea where the defendant's claim is consistent with the
defendant's "knowing, voluntary, and intelligent admission that he did what the indictment alleged."
Class v. United States, 138 S. Ct. 798, 804-05, 200 L. Ed. 2d 37 (2018) (holding a defendant who
pleaded guilty did not waive Second Amendment and due process challenges to statute of conviction
because claims did not "contradict the terms of the indictment or the written plea agreement"). In
pleading guilty, Ball acknowledged an essential element of his offense was that "[hjad the proposed
sexual activity occurred with a minor, one or more of the individuals engaging in the sexual activity
could have been charged with a criminal offense under the laws of the state of Florida, as charged in
the Indictment." Ball's constitutional challenge is therefore foreclosed to the extent it is based on his
contention that § 2422(b) does not reach sexual conduct that would have occurred in international
waters and would not have violated Florida law. See id.
Nevertheless, Ball has not completely waived his constitutional claim. Although{2020 U.S. App.
LEXIS 4} Ball admitted "he had traveled to Tampa, Florida, to meet with and engage in sexual
activities with a seven-year-old child" and had arrived at a predetermined meeting location in Florida
with a child's stuffed animal and various sexual paraphernalia, the plea agreement also described
conduct that presumably occurred from Dubai. To the extent Ball argues § 2422(b) does not reach
this conduct, this argument is not {835 Fed. Appx. 495} inconsistent with his guilty plea and
therefore not waived. See id.
B. Constitutional Claim

CIRHOT

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

70048018

Even assuming Ball's guilt was based on conduct that occurred outside the United States, however,
the district court did not plainly err in accepting his guilty plea. Because neither the Supreme Court
nor this Court has addressed whether § 2422(b) extends to conduct occurring outside the United
States, and the statute itself does not specifically resolve this issue, we cannot say the district court
plainly erred even if it applied the statute extraterritorially. See United States v. Lejarde-Rada, 319
F.3d 1288, 1291 (11th Cir. 2003) ("It is the law of this circuit that, at least where the explicit language
of a statute or rule does not specifically resolve an issue, there can be no plain error where there is
no precedent from the Supreme Court or this Court directly resolving{2020 U.S. App. LEXIS 5} it.");
see also United States v. Belfast, 611 F.3d 783, 816 (11th Cir. 2010) (rejecting constitutional
challenge to extraterritorial application of a criminal statute, and concluding "district court could not
have plainly erred," where no binding authority addressed extraterritoriality).
II. CONCLUSION
For the reasons above, Ball has failed to show plain error. Accordingly, we affirm.
AFFIRMED.
Footnotes

1
Because Ball raises his constitutional challenge to § 2422(b) for the first time on appeal, our review
of this issue is limited to plain error. See United Sfafes v. Belfast, 611 F.3d 783, 815 (11th Cir. 2010)
(providing a constitutional claim raised for the first time on appeal is reviewed for plain error). We
reject Bail’s attempt to characterize the issue as one of subject matter jurisdiction. See Morrison v.
Nat'l Australia Bank Ltd., 561 U.S. 247, 254, 130 S. Ct. 2869, 177 L. Ed. 2d 535 (2010) (holding
extraterritorial application of a statute is a merits question, not a question of subject matter
jurisdiction).

\

CIRHOT

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

70048018

!

I

I

1

APPENDIX ”C"
SUPREME COURT ORDER EXTENDING TIME
OF FILING CERTIORARI

i

ORDER
SUPREME COURT OF THE UNITED STATES
2020 U.S. LEXIS 1643; 88 U.S.L.W. 3309
No. 589.
March 19, 2020, Decided
Editorial Information: Subsequent History
Later proceeding at In re Order, 2020 U.S. LEXIS 2196 (U.S., Apr. 15, 2020)
Judges: {2020 U.S. LEXIS 1}Roberts, Thomas, Ginsburg, Breyer, Alito, Sotomayor, Kagan, Gorsuch
Kavanaugh.
Opinion

In light of the ongoing public health concerns relating to COViD-19. the following shall apply to cases
prior to a ruling on a petition for a writ of certiorari: IT IS ORDERED that the deadline to file any
petition for a writ of certiorari due on or after the date of this order is extended to 150 davs from the
date of the lower court judgment, order denying discretionary review, or order denying a timely
petition for rehearing. See Rules 13.1 and 13.3. IT IS FURTHER ORDERED that motions for
extensions of time pursuant to Rule 30.4 will ordinarily be granted by the Clerk as a matter of course
if the grounds for the application are difficulties relating to COVID-19 and if the length of the
extension requested is reasonable under the circumstances. Such motions should indicate whether
the opposing party has an objection. IT IS FURTHER ORDERED that, notwithstanding Rules 15.5
and 15.6, the Clerk will entertain motions to delay distribution of a petition for writ of certiorari where
the grounds for the motion are that the petitioner needs additional time to file a reply due to
difficulties relating to COVID-19. Such motions will ordinarily be granted{2020 U.S. LEXIS 2} by the
Clerk as a matter of course if the length of the extension requested is reasonable under the
circumstances and if the motion is actually received by the Clerk at least two days prior to the
relevant distribution date. Such motions should indicate whether the opposing party has an objection.
IT IS FURTHER ORDERED that these modifications to the Court's Rules and practices do not apply
to cases in which certiorari has been granted or a direct appeal or original action has been set for
argument. These modifications will remain in effect until further order of the Court.

SCTHOT

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

ORDER LIST: 594 U.S.
SUPREME COURT OF THE UNITED STATES
2021 U.S. LEXIS 3591
[NO NUMBER IN ORIGINAL]
July 19, 2021, Decided
Judges: {2021 U.S. LEXIS 1}Roberts, Thomas, Ginsburg, Breyer, Alito, Sotomayor, Kagan, Gorsuch
Kavanaugh.
Opinion

IT IS ORDERED that the Court’s orders of March 19, 2020 and April 15, 2020 relating to COVID-19
are rescinded, subject to the clarifications set forth below.
IT IS FURTHER ORDERED that, in any case in which the relevant lower court judgment, order
denying discretionary review, or order denying a timely petition for rehearing was issued prior to July
19, 2021, the deadline to file a petition for a writ of certiorari remains extended to 150 days from the
date of that judgment or order. In any case in which the relevant lower court judgment, order
denying discretionary review, or order denying a timely petition for rehearing was issued on or after
July 19, 2021, the deadline to file a petition for a writ of certiorari is as provided by Rule 13.
IT IS FURTHER ORDERED that the requirement of Rule 33.1 that 40 copies of documents be
submitted in booklet format will go back into effect as to covered documents filed on or after
September 1, 2021. For submissions pursuant to Rule 33.2, the requirement of Rule 39 that an
original and 10 copies be submitted, where applicable, will also go back into effect as to covered
documents filed on or after{2Q21 U.S. LEXIS 2} September 1,2021. The authorization to file a
single copy of certain documents on 81/z x 11 inch paper, as set forth in the Court's April 15, 2020
order, will remain in effect only as to documents filed before September 1, 2021.
IT IS FURTHER ORDERED that the following types of documents should not be filed in paper form
if they are submitted through the Court's electronic filing system: (1) motions for an extension of time
under Rule 30.4; (2) waivers of the right to respond to a petition under Rule 15.5; and (3) blanket
consents to the filing of amicus briefs under Rules 37.2(a) and 37.3(a). Notwithstanding Rule 34.6
and paragraph 9 of the Guidelines for the Submission of Documents to the Supreme Court's
Electronic Filing System, these enumerated filings should be filed electronically in cases governed
by Rule 34.6, although other types of documents in those cases should be filed in paper form only.

SCTHOT

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

70048018

APPENDIX ”D"
DISTRICT COURT
JUDGMENT AND COMMITMENT

r

\

V.

Jsj ■

♦

’ O'

(

'
iWjui Brtmoft 9tM

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION

IMPRISONMENT
The defendant is hereby eemmttod Is the custody ofthe UrStod Statti Hum of Prtoons to be knprtooncd lor*
total am of faro huhprep m»i sorry-two im months tm* arm comm d a arm of two humored and
SXTY.TWO PM) MONTHS — to Cat One Ad TWO HUHTMPTi «n4 FORTY Q40I NQNTTIS It B
T"*"
tndkimerit. *1 tueh term* t> nn conosrerSb. The DeScndm 0*1 reeatw ered* lor *ne tarred at celcutotod by iho
Bureau c* Prisons..

UNITED STATES OF AMERICA
Cm Number: «:1S-cr-69-T.17AAS
USM Number 700*8-018

w.
WILLIAM BRINSON BALL

The Com msfeas the late*tie recommendation* to the Bureai of ftlscnr

Fnnkfyn Loudcrbtcfc, ret

I.
2
2
4.
J.

l» Aotoo of toeerccratton - ra Mtrtonra, FBrtoa lor bitoculv* aex offender program
If poaxtito, tend amporl lor minor *on
MeAtel earn tor high blood preeaure and medcMon, etc.
INTENSIVE aanal offender MaenenL See PSR and court e«Wb.
OcfcndaniraimMffipIc language ek»* end trwnsfvamusicel education whbdiwotSd be tdrentageoueot
facMy and roeatint! pumsts
a.
e. PuraJaaducadonhaUf. .
T, 500 (but RQAP substance abuse program for akchcl

JUDGMENT IN A CRIMINAL CASE
The defender* pleaded goby to Count* One and Tiro of die Indttnenl The dttorelant a adjudkansl guffiy <d data
offender
Pass Often**
Cewetuaed

Mtnwaf flffsiw

Tfdt tflectee

I

Coer*
HwwMrfsl

ia us c.iMam

ABempScg B biduc* a Mbior B Engage to 9uua
Aas

Fet*u*ryi4,»i8

tea

M UACHZB«*)(')*nS
BSW.XD

TranaerBigendS>tof*igUckig*ffyMaan*and
FecBytoHostoa and FenM Commerce, end
VM OwfcSan. Whan ca ftMurtten «r re
Mtuel OapMon tweNad •« Uaa of a Urn*
Engagtig h teal) EnSk* Cendud

Mar, 11, an »

Tee

f

I

The defendant to remanded to 0» custody of die Untied Safe* Mental.

a
The defenders to aenKneedaaprmtoedbi dm Idbwlng pages of dSsNdgmanl Tha aantancab Imposed pumant to «»
Santencbig Retorm Acted ISBt.
-

RETURN

l here executed mb judgment e» Wear

fl S ORDERED that Ota dafsidvt must notify the UrStod States Attorney Cor aril district wfthbi 30 day* ol any CMnge of
name. rstldAce.btmaMig address aid *1 fines. resttuttan. cess end apccfel assessments knposed by this judgment ere
hkypaio If ordered to pay resStullon, me defendant that notify ths court and Unbed States ASaney of any mateneiAafc}e
to die defendanri ecenondc cteumstaneea.
(Me of bnpotHon of Judgment
October». 7018

2

J

--------- ~----- HJZA&TM A Kt>VAfatFV>5r~"*=
--------------------- UNITED STATESBSTRICT JUDGE

-October^.

J

Dtfanda.nl dcPrersd a

j_to
wldi a eertKtod copy of OB* judgment

at.

Lj-MIB______

a
UNTTEO STATES MARSHAL
By:

OcputyU 8 Marshal

AO MS* Mar coni) totpnarl * a C*M Caia

I

vmnam Brtieen DaB
i:ia<T4».r.i7AAa

arlfecrCS^iyMB

SUPERVISED RELEASE

STANDARD CONDITIONS OF SUPERVISION

UP0*1 mMosa fmm tourixsiinsiS. you mffi ba en auoeniMud refeaae fora tnrm cS UFE a* mearfi r* Cna*^ tw>
and Two of the Moment al such tnrm* t> rw> coneurrandy.

Aa pat of your tivarriMd release, you must amply uth the fckmtng aandard cmUn of sweretoton. That*
conaBona are bnpoaed because they eattMA the Beale coactoifions lor yoabctieiriarwhBe a tuparrfeton ana ideralfy
tha rrMiwntooMneadad by prabaOonoflkari to keep briormod. report to Ou court about, and Brest about
bnpnsremont* to your cendud and candUm

MANDATORY CONDITIONS
1.
2
J.

You mustt not comrt* another federal, stare or Meat erbne.
You mustt not untowtuBy possess a eonareasd sutatanco.
You muto rtfrabi from any unltwfiA use A a eontroBed tsSatanoo. Yu must aubml to on* tonq test wtnbi l s
days ef retoasa from knpr&cnttum and at toast tub petfodfc dug lesto Bareaftor, as determined by B» eeurt

4.

Yw nust Aopmto In the ccdeetton of ONA et dbeeted by die trebadA offioer.

5.

Yw naal gmsSywOi the reto»emctB» cf me Sea Oftonder Registration end NotltMBA fat (9* U.8.C. 120801.
<* see ) A direcaad by the protacbn offioer, da Bureau d Prison*, or any stale aes uflorOw replilrtohn agency
In the toctokm where yoiretote. work, ere a student, or were cotwlefedef a ouaBfftng offeree

TTa defendant Aal eontpfy aim fa Mndard eondUcns mat nave boA adoptod by mia opuf <ms lath bebgw).

1,

2
2
4.
5

e

The detondernsfat Mo comply adh the eddBento Andbtons a tho aneAed page.
7.

a
g
10.

1.

it.
12
I

IS.

You must report to die ptoboBon office in me Morel juft** dbbtol where you are authorized B raslda wfinto 72
haureof
impriaenmart, urines tha probation officer instructs you b report B a diflaront prebaton
rapergng B tho probation office, die defendant wto reoalvt
office or athbi a ddhrerS kra ban
MrucOoria from me oouri or mo probaOA office about how and when me defenders mist reperi B me probation
orifeor, all me defendant must repori to tha pnobaffion offioar aa tostmeted
After tobtaby reporting to the presisflon office, you wto reoctoa krstnjctlona from die court ta the prttoadon officer
about hoi and when you trust report to the probation officer, and you must report to the protaSA offleer as
httwtod!
You nutf not tnowtngfy Bare die federal NdUal dtjott where you are authottod to reside wffihots tost geCJng
pamMdcp bom da court or die probation tfficar.
You nufaaMr eumfuBy Oe ouaations as*ad by tour prebodon officer
YOU muRIre at a ptaeo approued by tha prebaden oritoar. tf you plan to Mungo where you Bre or anyttSng aeout
yota Brtog atrengcrnerM (audi aa tia paopla you Ire wth). you must needy the probation officer it least TO days
before BiB change. ffnotSyfnome probation officer to adianeoM not poasMo due to wwifluffiMtad cireumsaneea,
yeu must hodfy die probaBon offioar wthto 7} hdurm of becoming aware of a ehenga or aipeaad Aenga.
You mutTalow dia probation offiear to «M you al any Brno at your homo or otoewhere. w*S you muat permffi the
RtonlcSficer to Ma any Berne prcfStltod by the conditions olymatttoanrieton dal he or the observe* to pl**i
view.
the proboSA (Acer
Ym muat work M time (at toast 30 hours per week) at a toaful lypeolcrnploymera, a
urn— jou bom dobig to. B you do not hare fuBtbna amptoyment you must try to Bnd BASirra erruByment
untoss mb probMon efftosr uiim you from detog so. If you pton to Aanga where you work or anytNng tboul
your work (suA as yota posflon or yois job responsMtfcs). you must noOfy da probation Rfieer at leo« 10 days
before the Asnga. II notSykigdtoprobatBnofftogai toast 10 days in advaiea M net possRSe due to
unarttotoetod Aoumalaicea. you must nodfy me ptabWon effieer wBSn n hous of beoomtog aware of a Aenge
A etoeetod change.
You rmatnoteommuifcMB or Narad wkhaamecne you know to engaged In akntoBaetbty. Hyouknowaonaona
has Oeon’mmiStfcd of alatony. you must not knoamjycomtTMScatoAkAradwtdidatpereonwfdiout tost getting
(he permfcdon ot Iho probaBon offioer.
Ifyou »e Wrested aquasdonad by a law artotcamers officer, you muat neBly da nctatoAi officer wBSnn hows.
You mud not own. poems, a hare eoeets to e fkasrm. anmunffiton. destruedre Oniee. or dangerous wespon
(le. onyWnc Oat was destined, or was moddM for, the apecCc purpose «f causbig body kypsy a deadi to
another person auA as nunAAus ot taaersl
You rruaTncS adamds any agreemerS sriffi a tow enforcement aganey to aet a e eenfldenttol humA teuree or
kifui inafjwtoiuul tostgadkig me pwnSstoon of the couri.
B the probation offioar datarmbya das you pete e ttok to toiether persA (induAig a organtzatienl. da probabA
offloir mdy reqitoe you to no^r da partA about da risk and you must comply w#h Oat bobueflon. The probation
offioer mdy eentael me peraA and oonlbm dal you have netftod da periA about me rtok.
Ya muof BBow (ha kubuedon* of me isoballA dffieer relsted to da condtoona of ettoervtoton.

U.S. Probation Offleo Use Only
A U.8. prebatton officer has bubuetod me A da eondtoons apedffiad by the eoial and has prerfdad me with a written
copy tSfttojMgritntwntjHno these ccndbcns. For further kifumatiaireotrtonc Base ccndBcn*. see ftwrvlaw cl
ftrdalhn and RiiinnSsarf fhitoi a Qsndboru. avMAto A www.useourta.flov.

!

MtndviTi 8^Nhf6^

Oats,

f
******•

V

cum

i

